No. 19In the

Supreme Court of the United States

DONALD DEWEES,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of A ppeals for the
District of Columbia Circuit

PETITION FOR A WRIT OF CERTIORARI

Mark A. Feigenbaum
Counsel of Record
1137 Centre Street, Suite 201
Thornhill, ON Canada L4J 3M6
(905) 695-1269
mark@feigenbaumlaw.com
Attorney for Petitioner

289483

i
QUESTIONS PRESENTED
The Convention between Canada and the United
States of America with Respect to Taxes on Income and
Capital (“the Convention”) allows no meaningful review
prior to the assessment and collection of a non-resident
U.S. citizen’s tax liability. The Petitioner Donald Dewees,
a Canadian resident, was forced to pay his contested
U.S. tax debt due to Canadian withholding and collection
activity pursuant to Article 26A of the Convention.
Also, while the D.C. Circuit Court below acknowledged
that Dewees has standing to claim an equal protection
violation, it upheld the IRS’ refusal to allow him enter its
Streamlined Filing Compliance Procedures (SFCP). Lack
of access to the SFCP arbitrarily cost Dewees $120,000 in
assessed maximum tax penalties for late filings of Form
5471, even where the IRS admitted Dewees’ owed no tax.
Therefore, the Questions Presented are:
1. Did the lack of a meaningful review of the
assessment and collection of a tax under the Convention
violate Dewees’ right to due process?
2. Did the IRS’ arbitrary refusal to allow Dewees’ to
enter the SFCP violate his equal protection rights, where
other non-resident taxpayers allowed into the program
avoid late-filing penalties?
3. Were the civil fines assessed and collected against
Dewees for late filings of Form 5471 excessive under
the Eighth Amendment, especially where the IRS
acknowledged Dewees owed no tax?

ii
PARTIES TO THIS PROCEEDING
Plaintiff-Petitioner:

Donald Dewees

Defendant-Respondent: United States

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THIS PROCEEDING . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . vi
CITATION TO OFFICIAL REPORTS
OF OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF BASIS FOR JURISDICTION . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED  . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
A. Basis for Federal Jurisdiction  . . . . . . . . . . . . . . . 2
B. Statement of Facts . . . . . . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION . . . . . 5

iv
Table of Contents
Page
A. No Court Has Decided Whether a United
States Tax Treaty with a Foreign Nation
Such as the Convention Satisfies a Taxpayer
Citizen’s Right to Procedural Due Process
as to the Assessment and Collection of a
Tax or Penalty, Where No Meaningful
Rev iew is A llowed to the Ta xpayer
Prior to Collection and Enforcement. . . . . . . . . . 5
B. In Accordance With Equal Protection Rights,
the IRS May Not Deny a Citizen Taxpayer
the Right to Enter the SFCP Who Was Not
a Participant in the OVDP at the Time of
SFCP’s Creation, Where Similarly Situated
Taxpayers With Cases Arising After the
SFCP’s Origin Face No Such Barrier.  . . . . . . . 10
C. While the Supreme Court Has Held that The
Excessive Fines Clause May Apply to Civil
Penalties or Fines with a Partly Punitive
Purpose, the Lower Courts Have Wrongly
Construed This Precedent to Not Apply to
Civil Fines Under 26 U.S.C. § 6038 and Other
Tax Statutes Imposing Similar Penalties.  . . . . 15
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

v
TABLE OF APPENDICES
Page
APPENDIX A — JUDGMENT OF THE UNITED
STATES COURT OF APPEALS FOR THE
DISTRICT OF COLU M BI A CIRCUIT,
FILED APRIL 9, 2019 . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — ORDER AND MEMORANDUM
OPINION OF THE UNITED STATES
DISTRICT COURT FOR THE DISTRICT
OF COLUMBIA, FILED AUGUST 8, 2017 . . . . . . .9a

vi
TABLE OF CITED AUTHORITIES
Page
CASES
Adarand Constructors, Inc. v. Pena,
515 U.S. 200 (1995)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Allegheny Pittsburgh Coal Co. v. County
Commission of Webster County, W. Va.,
488 U.S. 336 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Armour v. City of Indianapolis,
566 U.S. 673 (2012)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Austin v. United States,
509 U.S. 602 (1993) . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Bell v. Burson,
402 U.S. 535 (1971)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Board of Regents v. Roth,
408 U.S. 564 (1972) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Bob Jones University v. Simon,
416 U.S. 725 (1974) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Browning–Ferris Industries of Vt., Inc. v.
Kelco Disposal, Inc.,
492 U.S. 257 (1989)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Commissioner v. Shapiro,
424 U.S. 614 (1976)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

vii
Cited Authorities
Page
Dewees v. United States,
272 F. Supp. 3d 96 (D.D.C. 2017) . . . . . . . . . . . . . 1, 4, 7
Dewees v. United States,
767 Fed. Appx. 4 (D.C. Cir. 2019)  . . . . . . . . . 1, 5, 7, 12
Hillsborough Township, Somerset County, N.J.,
v. Cromwell,
326 U.S. 620 (1946) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Logan v. Zimmerman Brush Co.,
455 U.S. 422 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Mathews v. Eldridge,
424 U.S. 319 (1976)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Maze v. IRS,
206 F. Supp. 3d 1 (D.D.C. 2016), aff’d,
862 F.3d 1087 (D.C. Cir. 2017) . . . . . . . . . . . . . . . . . . 11
McDonald v. Chicago,
561 U.S. 742, 130 S. Ct. 3020,
177 L. Ed. 2d 894 (2010) . . . . . . . . . . . . . . . . . . . . . . . 15
Montana National Bank of Billings v.
Yellowstone County, Montana,
276 U.S. 499 (1928)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Mullane v. Central Hanover Bank & Trust Co.,
339 U.S. 306 (1950) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

viii
Cited Authorities
Page
Shalala v.
Illinois Council on Long Term Care, Inc.,
529 U.S. 1 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Sibbach v. Wilson & Co.,
312 U.S. 1 (1941)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Timbs v. Indiana,
__ U.S. __, 139 S. Ct. 682 (2019) . . . . . . . . . . . . .  15, 16
United States v. Bajakajian,
524 U.S. 321 (1998)  . . . . . . . . . . . . . . . . . . . . . . . .  16, 17
United States v. Ovalle,
136 F.3d. 1092 (6th Cir. 1988) . . . . . . . . . . . . . . . . . . . 10
Z Street, Inc. v. Koskinen,
44 F. Supp. 3d 48 (D. D.C. 2014)  . . . . . . . . . . . . . . . . . 9

STATUTES AND OTHER AUTHORITIES
U.S. Const., amend. V  . . . . . . . . . . . . . . . . . . . . . . . . .  1, 10
U.S. Const., amend. VIII . . . . . . . . . . . . . . . . . . . . . . . 1, 15
26 U.S.C. § 6038 . . . . . . . . . . . . . . . . . . . . . . . . . .  11, 13, 17
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

ix
Cited Authorities
Page
28 U.S.C. § 1346(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Fed. Civ. R. 12(b)(6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 4
Taxpayer Advocacy Service – “Fiscal Year 2017
Objectives Report to Congress,” Vol. One . . . . . . . . 14
The Canada-United States Tax Convention,
Article XXVI A . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 4, 5
Matthew A. Melone, Penalties for the Failure to
Report Foreign Financial Accounts and the
Excessive Fines Clause of the Eighth Amendment,
22 Geo. Mason L. Rev. 337 (2015) . . . . . . . . . . . .  16, 17

1
CITATION TO OFFICIAL REPORTS
OF OPINIONS BELOW
The opinion of the United States Court of Appeals
for the District of Columbia Circuit is reported in Dewees
v. United States, 767 Fed. Appx. 4 (D.C. Cir. 2019). The
opinion of the United States District Court for the District
of Columbia is reported in Dewees v. United States, 272
F.Supp.3d 96 (D. D.C. 2017).
STATEMENT OF BASIS FOR JURISDICTION
The D.C. Circuit entered judgment on April 9, 2019
and affirmed the order of the District Court granting the
United States R. 12(b)(6) motion against Dewees. This
Court has jurisdiction to review this Petition for Certiorari
pursuant to 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
1.

Fifth Amendment:
No person shall be . . . deprived of life, liberty, or
property, without due process of law.

2.

Eighth Amendment:
Excessive bail shall not be required, nor excessive
fines imposed, nor cruel and unusual punishments
inflicted.

3.

The Canada-United States Tax Convention, Article
XXVI A (See Appendix to Petition).

2
STATEMENT OF THE CASE
A. Basis for Federal Jurisdiction
Dewees brought an action in the District Court
pursuant to 28 U.S.C. § 1346(a) for a refund of the tax
penalties assessed and collected under the Convention for
his late filings of Form 5471. 28 U.S.C. § 1346(a) gives the
District Court jurisdiction in “[a]ny civil action against the
United States for the recovery of any internal-revenue tax
alleged to have been erroneously or illegally assessed or
collected, or any penalty claimed to have been collected
without authority or any sum alleged to have been
excessive or in any manner wrongfully collected under
the internal-revenue laws.”
B. Statement of Facts
Dewees is a United States citizen born in Los Angeles,
California, and he moved to Canada in 1971 for work
reasons and has remained there as a resident since.
Dewees became aware of potential penalties in relation
to not filing U.S. tax returns as a non-resident American
citizen, so he immediately sought the assistance of a
U.S. tax specialist, who advised Dewees to join the then
applicable 2009 Offshore Voluntary Disclosure Program
(OVDP).
Dewees’ OVDP submission was completed and sent
to the IRS on October 14, 2009. At the same time, Mr.
Dewees sent his U.S. Forms 1040, 90-22.1, and 5471 to
the IRS for the tax years 2003 through 2008.

3
On November 23, 2009, the IRS notified Mr. Dewees
that he had been preliminarily accepted into the OVDP.
After he sent in all of the required information, on October
28, 2010 the IRS assessed penalties in the amount of
$252,480 against Dewees, all of which related to past noncompliance with filing an annual Report of Foreign Bank
and Financial Accounts (FBAR). The assessed penalties
were reduced to $185,862, as the IRS had double counted
some accounts.
On January 13, 2011 the IRS notified Dewees that he
was at risk of being terminated from the OVDP for failure
to pay the assessed penalty, and on
June 16, 2011 Dewees confirmed his withdrawal from
the OVDP because of the excessive amounts of penalties
assessed, at which time the IRS removed the penalties
from his account.
After Dewees’ withdrawal from the OVDP, the IRS
assessed new penalties against him in the amount of
$120,000 for the late filings of Form 5471, an information
return concerning a non-resident U.S. citizen’s ownership
of and financial information about a foreign corporation.
Dewees requested an abatement of these penalties for
“reasonable cause” on September 27, 2011 based on an
absence of willful noncompliance and a lack of any further
taxes owed. Instead, the IRS assessed an additional
$10,000 penalty, $5,000 per year for 2007 and 2008.
Dewees paid this additional $10,000, but the IRS
rejected Dewees’ request for abatement of civil penalties
on February 25, 2014 without elaboration. Six months
later, the IRS Appeals Office held that Dewees had failed

4
to show reasonable cause for his failure to file Form 5471,
again without elaboration. The IRS did not issue a notice
of deficiency for the penalty assessment, so the U.S. Tax
Court had no jurisdiction to hear any appeal of the penalty
assessment, and Dewees had no avenue for a meaningful
appeal of the assessed penalty.
After the IRS had rejected Dewees’ appeal, it first
introduced the SFCP to encourage taxpayers to voluntarily
disclose offshore assets more readily. Meanwhile, in May
2015, the Canadian Revenue Agency (the “CRA”) notified
Dewees that it was holding his Canadian tax refund in
abeyance due to his outstanding $120,000 debt to the
IRS, under Article XXVI(A) of the Convention. Dewees
promptly sent the Canadian Revenue Agency a check for
$134,116.34, representing the $120,000 penalty assessed,
plus interest. In September 2015 he filed his claim in the
District Court seeking a refund of that amount, as well as
a declaration that the relevant provisions of the Convention
are unconstitutional.
In granting the United States’ R. 12(b)(6) motion to
dismiss, the District Court held that Dewees failed to state
a claim for relief on his claims regarding excessive fines
and due process. 272 F.Supp.3d at 100-02. 1 With respect
to the equal protection claim, the District Court held that
Dewees did not have standing because he had not applied
to enter the SFCP, although the IRS admits that under
1. While Dewees made an excessive fine claim before the
District Court, which ruled against him on the issue, he did not
argue it before the D.C. Circuit. However, this Court may in its
discretion address the excessive issue for a fundamental or plain
error, as raised in this Petition for Certiorari. See, e.g., Sibbach
v. Wilson & Co., 312 U.S. 1 (1941).

5
existing rules he was ineligible for entry because he had
left the OVDP previously. Id. at 102.
On appeal, the D.C. Circuit affirmed the District
Court’s denial of Dewees’ due process claim, 767 Fed.
Appx. at 7, but the D.C. Circuit reversed the lower court
on the standing issue, holding that Dewees’ application
to enter the SFCP would have been futile under IRS
rules. Id. at 7-8. Nonetheless, the D.C. Circuit affirmed
the dismissal of Dewees’ equal protection claims on the
grounds that the restriction on Dewees’ participation
in the SFCP had a rational relationship to a legitimate
government purpose. Id. at 8.
REASONS FOR GRANTING THE PETITION
A. No Court Has Decided Whether a United States
Tax Treaty with a Foreign Nation Such as the
Convention Satisfies a Taxpayer Citizen’s Right
to Procedural Due Process as to the Assessment
and Collection of a Tax or Penalty, Where No
Meaningful Review is Allowed to the Taxpayer
Prior to Collection and Enforcement.
The IRS afforded perfunctory administrative review
concerning Dewees’ appeal from the assessment and
collection of the civil penalties against him for late filings
of Form 5471. Under the pertinent provisions of Article
XXVI A of the Convention, Dewees had no right to a
meaningful review of the procedural and substantive
propriety of the penalties assessed prior to Canada’s
withholding of his tax refund:

6
3. A revenue claim of the applicant State that
has been finally determined may be accepted
for collection by the competent authority of the
requested State and, subject to the provisions
of paragraph 7, if accepted shall be collected
by the requested State as though such revenue
claim were the requested State’s own revenue
claim finally determined in accordance with the
laws applicable to the collection of the requested
State’s own taxes.
4. Where an application for collection of a
revenue claim in respect of a taxpayer is
accepted
(a) by the United States, the revenue
claim shall be treated by the United
States as an assessment under United
States laws against the taxpayer as of
the time the application is received;
and
(b) by Canada, the revenue claim shall
be treated by Canada as an amount
payable under the Income Tax Act,
the collection of which is not subject
to any restriction.
5. Nothing in this Article shall be construed
as creati ng or prov id i ng any r ights of
administrative or judicial review of the
applicant State’s finally determined revenue
claim by the requested State, based on any
such rights that may be available under the

7
laws of either Contracting State. If, at any time
pending execution of a request for assistance
under this Article, the applicant State loses
the right under its internal law to collect the
revenue claim, the competent authority of the
applicant State shall promptly withdraw the
request for assistance in collection.
(Emphasis added).
The IRS and the lower courts rely upon the postpayment administrative appeals afforded Dewees through
the IRS as satisfying any due process requirements.
See 767 Fed. Appx. at 7. The IRS Appeals Office gave no
written, material explanation for the denial of Dewees’
appeals based on an alleged lack of “reasonable cause.”
The District Court concluded that the right to sue for a
post-payment refund under 28 U.S.C. § 1346(a) alone is
sufficient due process. See 272 F.Supp.3d at 101-02.
Meanwhile, the Canadian authorities seized Dewees’
assets while he was awaiting the opportunity to sue for a
refund after the rubber-stamp IRS appeal process was
completed, with no meaningful hearing or deliberation on
the part of the Service on the merits of his claim.
“Many controversies have raged about the cryptic and
abstract words of the Due Process Clause but there can be
no doubt that at a minimum they require that deprivation
of life, liberty or property by adjudication be preceded
by notice and opportunity for hearing appropriate to the
nature of the case.” Mullane v. Central Hanover Bank &
Trust Co., 339 U.S. 306,313 (1950) (emphasis added)

8
Due process is f lexible and calls for such
procedural protections as the particular
situation demands. Accordingly, resolution
of the issue whether the administrative
procedures provided here are constitutionally
sufficient requires analysis of the governmental
and private interests that are affected. More
precisely, our prior decisions indicate that
identification of the specific dictates of due
process generally requires consideration of
three distinct factors: First, the private interest
that will be affected by the official action;
second, the risk of an erroneous deprivation
of such interest through the procedures used,
and the probable value, if any, of additional
or substitute procedural safeguards; and
finally, the Government’s interest, including
the function involved and the fiscal and
administrative burdens that the additional or
substitute procedural requirement would entail.
Mathews v. Eldridge, 424 U.S. 319, 334-35 (1976) (citations
omitted).
This Court has repeatedly held that due process
ordinarily requires a hearing and a consideration of the
merits, something that the Convention did not afford
Dewees prior to the CRA’s confiscation of his property:
The Due Process Clause grants the aggrieved
party the opportunity to present his case
and have its merits fairly judged. Thus it has
become a truism that some form of hearing is
required before the owner is finally deprived of

9
a protected property interest. And that is why
the Court has stressed that, when a statutory
scheme makes liability an important factor
in the State’s determination, the State may
not, consistent with due process, eliminate
consideration of that factor in its prior hearing.
To put it as plainly as possible, the State may
not finally destroy a property interest without
first giving the putative owner an opportunity
to present his claim of entitlement.
Logan v. Zimmerman Brush Co., 455 U.S. 422, 433-34
(emphasis added) (citing Board of Regents v. Roth, 408
U.S. 564, 570–571, n.8 (1972); Bell v. Burson, 402 U.S.
535, 541 (1971).
Here, the availability of a refund suit does not
satisfy the violation of Dewees’ due process rights when
the Convention expressly allows the deprivation of his
property by the Canadian government to collect U.S. taxes
without any hearing or other proceeding on the merits.
This Court’s holding in Bob Jones University v. Simon,
416 U.S. 725 (1974), relied upon below, does not address
Dewees’ claim about the unconstitutionality of the process
under the Convention, rather than a due process claim
about the amount of the tax subject to the Anti-Injunction
Act. Cf. Z Street, Inc. v. Koskinen, 44 F.Supp.3d 48, 67-68
(D. D.C. 2014) (non-profit corporation’s core contention was
about constitutionality of process that IRS employed in
evaluating § 501(c)(3) applications, rather than tax liability,
and suit was not even tangentially related to any refund).
Furthermore, “where irreparable injury may result
from a deprivation of property pending final adjudication

10
of the rights of the parties, the Due Process Clause
requires that the party whose property is taken be
given an opportunity for some kind of predeprivation or
prompt post-deprivation hearing at which some showing
of the probable validity of the deprivation must be made.”
Commissioner v. Shapiro, 424 U.S. 614, 629 (1976).
B. In Accordance With Equal Protection Rights, the
IRS May Not Deny a Citizen Taxpayer the Right
to Enter the SFCP Who Was Not a Participant in
the OVDP at the Time of SFCP’s Creation, Where
Similarly Situated Taxpayers With Cases Arising
After the SFCP’s Origin Face No Such Barrier.
This case presents a matter of substantial importance
under the Fifth Amendment as it pertains to the
construction and enforcement of the Convention in light
of a nonresident-U.S. citizen taxpayer’s right to equal
protection.
The Fifth Amendment provides that “No person shall
… be deprived of life, liberty, or property, without due
process of law .. “ The Due Process Clause of the Fifth
Amendment includes a guarantee of equal protection
equivalent to that expressly provided for under the Equal
Protection Clause of the Fourteenth Amendment. “An
equal protection claim against the federal government
is analyzed under the Due Process Clause of the Fifth
Amendment.” Adarand Constructors, Inc. v. Pena, 515
U.S. 200, 217 (1995); United States v. Ovalle, 136 F.3d.
1092, 1095 (6th Cir. 1988).
At the time of the assessment, collection, and
enforcement of the civil penalties for his late filings of

11
Form 5471, Dewees was enrolled in the OVDP. Since he
owed no past-due tax but had been assessed civil penalties
under 26 U.S.C. § 6038, way in excess of any reasonable
purpose of enforcement, Dewees opted out of the OVDP.
Within the time period of his administrative proceedings
against the IRS and the CRA’s seizure of his property, the
IRS created the SFCP and began to phase out the OVDP,
until its eventual elimination in 2018.
The SFCP differs from the OVDP by involving less
paperwork and imposing lower or zero penalties upon latefiling non-resident U.S. taxpayers and usually involves a
three-year limits, as opposed to the exorbitant 12 years
of penalties the IRS inexplicably imposed on Dewees
in this matter. See Maze v. IRS), 206 F.Supp.3d 1, 5–6
(D.D.C. 2016), aff’d, 862 F.3d 1087, 1089 (D.C. Cir. 2017).
Transferring between the two programs is generally
disfavored, but taxpayers who are otherwise eligible for
the SFCP and who made their OVDP submissions before
July 1, 2014 may remain in the OVDP while requesting
the more favorable terms available under the SFCP. See
Maze, supra, 206 F.Supp.3d at 7–8.
Dewees became aware that under existing IRS rules
he was precluded from entering the SFCP because he
had been a past participant in the OVDP. An application
to the SFCP would have been legally futile, an act which
he no obligation to perform in order to maintain standing.
See generally Shalala v. Illinois Council on Long Term
Care, Inc., 529 U.S. 1, 13 (2000); Montana National Bank
of Billings v. Yellowstone County, Montana, 276 U.S. 499,
505 (1928).

12
The D.C. Circuit recognized the District Court’s
error and held that Dewees had standing to raise his
equal protection claim against the IRS’ discrimination
allowing other non-resident taxpayers to enter the SFCP
and avoid penalties but assessing exorbitant penalties
against Dewees for like violations because he had exited
the OVDP:
Dewees’ equal protection claim fits that bill.
His obligation to pay a higher penalty than
other taxpayers, whom Dewees considers to
be similarly situated, amounts to a concrete
and particularized legal injury. That injury is
plainly caused by the IRS and redressable by
court decree. Article III requires no more.
The district court reasoned that standing
was contingent on Dewees’ first applying for
the more favorable governmental program.
Dewees, 272 F.Supp.3d at 102 & n.1. But there
is no dispute that Dewees was categorically
ineligible for the Streamlined Program. Under
these circumstances, Article III standing does
not hinge upon Dewees’ failure to undertake a
futile act.
767 Fed. Appx. At 8.
The D.C. Circuit, however, held that the purely
economic injury did not support his equal protection
claim because the IRS’ rules were rationally related to a
legitimate governmental purpose. Id. The D.C. Cir. stated:

13
The difference in treatment here is rational.
The purpose of the Streamlined Program
was ‘[t]o encourage * * * taxpayers to come
forward.’ See Statement of IRS Commissioner
John Koskinen, Internal Revenue Service (June
18, 2014). For Dewees and other taxpayers who
had already voluntarily come forward years
earlier, no such incentive was needed. It was
therefore rational for the government, which
had already assessed Dewees’ liability though
the Disclosure Program, to decline to devote
further resources to reassess his liability under
the Streamlined Program’s revised penalty
structure.
Id. (citation omitted).
While “whe[n] ‘ordinary commercial transactions’
are at issue, rational basis review requires deference
to reasonable underlying legislative judgments[.],”
and even though “[l]egislatures have especially broad
latitude in creating classifications and distinctions in tax
statutes,” see Armour v. City of Indianapolis, 566 U.S.
673, 680 (2012), this case involves more than mere tax
classifications.
Here, the IRS has consciously created a situation
where, at all pertinent times in this case, a non-resident
U.S. citizen taxpayer who is not a participant in the OVDP
could be denied access to the SFCP, but other similarly
situated non-resident U.S. citizen taxpayers who were
never a part of the OVDP can apply for and receive
the SCFP’s lower or excused penalties under 26 U.S.C.
§ 6038. Such a distinction has no rational basis to further

14
tax collection. See generally Taxpayer Advocacy Service
– “Fiscal Year 2017 Objectives Report to Congress,” Vol.
One at pp. 164-76, https://taxpayeradvocate.irs.gov/Media/
Default/Documents/2017-JRC/Area_of_Focus_12.pdf. 2
Contrary to the reasoning of the D.C. Circuit, Dewees,
and others like him, would have been more likely to come
forward and settle their disputes with the IRS if afforded
the opportunity to enter the SFCP.
2. As noted in Taxpayer Advocacy Service – “Fiscal Year
2017 Objectives Report to Congress,” Vol. One at p. 169:
[T]he IRS is currently being sued because of its
failure to adhere to the Administrative Procedure Act
(APA) in promulgating the rules governing taxpayers
seeking to ‘transition’ into a streamlined program
from an OVD program. Unlike taxpayers who apply
directly to a streamlined program, these taxpayers
are denied access if the IRS does not agree that their
violations were not willful. The IRS does not provide
taxpayers with any substantive basis or explanation
for a denial or with the right to an appeal. Regardless
of what the APA requires, an agency should explain
why it has decided to adopt a rule — particularly
one viewed as unfair — and address suggestions to
improve it, as would be the case with formal guidance.
It should also provide taxpayers with explanations for
any adverse determinations it makes in their cases.
The IRS’s failure to take these simple steps violates
most of the recently-enacted taxpayer rights [See Id
at FN 24: “IRC § 7803 (a). For example, it violates the
Rights to Be Informed, Quality Service, Pay No More
Than the Correct Amount of Tax, Challenge the IRS’s
Position and Be Heard, Appeal an IRS Decision in an
Independent Forum, Finality, Privacy, and A Fair and
Just Tax System”].

15
Where a taxing authority creates unreasonable
distinctions between similarly situated taxpayers to the
detriment of a taxpayer or taxpayers, then the equal
protection rights under the Fifth Amendment preclude
such discrimination. Cf. Allegheny Pittsburgh Coal Co. v.
County Commission of Webster County, W. Va., 488 U.S.
336, 344-45 (1989) (“The equal protection clause protects
the individual from state action which selects him out for
discriminatory treatment by subjecting him to taxes not
imposed on others of the same class”) (citing Hillsborough
Township, Somerset County, N.J., v. Cromwell, 326 U.S.
620, 623 (1946)).
C. While the Supreme Court Has Held that The
Excessive Fines Clause May Apply to Civil Penalties
or Fines with a Partly Punitive Purpose, the Lower
Courts Have Wrongly Construed This Precedent to
Not Apply to Civil Fines Under 26 U.S.C. § 6038 and
Other Tax Statutes Imposing Similar Penalties.
“Like the Eighth Amendment’s proscriptions of “cruel
and unusual punishment” and “[e]xcessive bail,” the
protection against excessive fines guards against abuses
of government’s punitive or criminal-law-enforcement
authority. This safeguard, we hold, is fundamental to our
scheme of ordered liberty, with deep roots in our history
and tradition.” Timbs v. Indiana, __ U.S. __, 139 S.Ct.
682, 686-87 (2019) (citing McDonald v. Chicago, 561 U.S.
742, 767, 130 S.Ct. 3020, 177 L.Ed.2d 894 (2010).
Under the Eighth Amendment, “[e]xcessive bail shall
not be required, nor excessive fines imposed, nor cruel and
unusual punishments inflicted.” “Taken together, these
Clauses place parallel limitations on “the power of those

16
entrusted with the criminal-law function of government.
Directly at issue here is the phrase nor excessive fines
imposed, which limits the government’s power to extract
payments, whether in cash or in kind, as punishment for
some offense. Timbs, supra, 139 S.Ct. at 687.
This Court has repeatedly held that the Excessive
Fines clause applies to both criminal and civil penalties.
See, e.g., United States v. Bajakajian, 524 U.S. 321 (1998);
Austin v. United States, 509 U.S. 602 (1993); Browning–
Ferris Industries of Vt., Inc. v. Kelco Disposal, Inc.,
492 U.S. 257 (1989); see generally Matthew A. Melone,
Penalties for the Failure to Report Foreign Financial
Accounts and the Excessive Fines Clause of the Eighth
Amendment, 22 Geo. Mason L. Rev. 337, 361-70 (2015).
This Court in Austin, stated:
Some provisions of the Bill of Rights are
expressly limited to criminal cases. The Fifth
Amendment’s Self–Incrimination Clause,
for example, provides: ‘No person ... shall be
compelled in any criminal case to be a witness
against himself.’ The protections provided by
the Sixth Amendment are explicitly confined
to ‘criminal prosecutions.’ See generally Ward,
448 U.S., at 248, 100 S.Ct., at 2641.4 The text
of the Eighth Amendment includes no similar
limitation. See n. 2, supra.
Nor does the history of the Eighth Amendment
require such a limitation. Justice O’CONNOR
noted in Browning–Ferris: ‘Consideration of
the Eighth Amendment immediately followed
consideration of the Fifth Amendment. After

17
deciding to confine the benefits of the Self–
Incrimination Clause of the Fifth Amendment
to criminal proceedings, the Framers turned
their attention to the Eighth Amendment. There
were no proposals to limit that Amendment to
criminal proceedings....’ 492 U.S., at 294, 109
S.Ct., at 2930. Section 10 of the English Bill
of Rights of 1689 is not expressly limited to
criminal cases either. The original draft of
§ 10 as introduced in the House of Commons did
contain such a restriction, but only with respect
to the bail clause: ‘The requiring excessive
Bail of Persons committed in criminal Cases,
and imposing excessive Fines, and illegal
Punishments, to be prevented.’ 10 H.C.Jour. 17
(1688). The absence of any similar restriction in
the other two clauses suggests that they were
not limited to criminal cases.
509 U.S at 608-09 (emphasis added).
Nonetheless, the lower courts and the District Court in
this case have taken the position that civil penalties under
26 U.S.C. § 6038 are “remedial” and “compensatory” in
nature and do not invoke the Excessive Fines clause. See
272 F.Supp.3d at 100-01 (and cases cited). However, a civil
fine may pose both a remedial purpose and a punitive
purpose, thus making it subject to the Eighth Amendment.
Bajakajian, 524 U.S at 329; Melone, supra, 22 Geo. Mason
L. Rev. at 367-68.
In the present case, the IRS has fined Dewees
$120,000 plus interest for the late filings of Form 5471,
even though it is conceded that Dewees owes no further

18
underlying tax. The fine is grossly disproportional to
any so-called remedial or compensatory purpose in the
collection of taxes in this case under the Convention. The
Court should specifically address the issue in this context,
since the lower courts continue to disregard the import of
this Court’s jurisprudence on the Excessive Fines clause’s
applicability to civil fines which are based on, at last partly,
a punitive motive.
CONCLUSION
The Court should grant this Petition and decide
these constitutional issues related to the assessment and
collection of a non-resident U.S. citizen pursuant to the
Convention.
Dated: July 5, 2019.
Respectfully submitted,
Mark A. Feigenbaum
Counsel of Record
1137 Centre Street, Suite 201
Thornhill, ON Canada L4J 3M6
(905) 695-1269
mark@feigenbaumlaw.com
Attorney for Petitioner

APPENDIX

1a
Appendix A OF THE UNITED
APPENDIX A — JUDGMENT
STATES COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA CIRCUIT,
FILED APRIL 9, 2019
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 17-5274
DONALD DEWEES,
Appellant,
v.
UNITED STATES OF AMERICA,
Appellee.
Appeal from the United States District Court
for the District of Columbia
(No. 1:16-cv-01579)
April 9, 2019, Filed
Before: garland, Chief Judge, M Illett, Circuit
Judge, and WIllIams, Senior Circuit Judge.
JUDGMENT
This case comes before the court on appeal from the
United States District Court for the District of Columbia’s
order dismissing Donald Dewees’ complaint for lack of

2a
Appendix A
standing and for failure to state a claim upon which relief
can be granted. The court has afforded the issues full
consideration and has determined that they do not warrant
a published opinion. See D.C. CIr. R. 36(d). It is
ORDERED AND ADJUDGED that the order of the
district court be affirmed.
Donald Dewees, an American citizen, moved from
the United States to Canada in 1971 and has continued
to reside there. In 1979, Dewees established a consulting
business that he incorporated in Canada. He paid his
Canadian taxes annually, but he did not file his federal
tax returns in the United States. In 2009, Dewees became
concerned about his United States tax liability. So he
applied to participate in an Internal Revenue Service
program that “encourage[s] non-compliant taxpayers to
come into compliance with the applicable law” through the
voluntary disclosure of foreign assets. Maze v. Internal
Rev. Serv., 206 F. Supp. 3d 1, 5 (D.D.C. 2016), aff’d, 862 F.3d
1087 (D.C. Cir. 2017); see also id. at 5-6 (“Common to all
such programs is that the IRS provides certain benefits for
taxpayers,” such as lower penalties and a greatly reduced
risk of criminal prosecution, “in exchange for voluntary
disclosure pursuant to the applicable guidelines.”). The
program to which Dewees applied was the 2009 Offshore
Voluntary Disclosure Program (“Disclosure Program”).
Dewees was preliminarily accepted into the Disclosure
Program in November 2009, and was assessed $185,862
in tax penalties. Dewees balked. Viewing that penalty to
be “excessive,” he withdrew from the Disclosure Program.

3a
Appendix A
By withdrawing from the Disclosure Program,
Dewees became subject to a fuller examination and to “all
applicable penalties.” Voluntary Disclosure: Questions
and Answers, Internal Revenue ServIce (May 6, 2009),
https://www.irs.gov/newsroom/voluntary-disclosurequestions-and-answers. Upon completion of that full
examination, the IRS imposed a penalty of $120,000.
Dewees administratively challenged the $120,000
penalty, first through the IRS Taxpayer Advocate’s
Office, and then through the IRS Appeals Office. Neither
succeeded. Dissatisfied, Dewees refused to pay the
penalty. But then, in 2015, Canada withheld his 2014 tax
refund under the United States-Canada Tax Treaty. See
Convention Between the United States and Canada with
Respect to Taxes on Income and on Capital, Sept. 26,
1980, U.S.-Can., T.I.A.S. No. 11,087, 1986 IRB LEXIS
1083; see also Third Protocol Amending the Convention
Between Canada and the United States of America with
Respect to Taxes on Income and on Capital, Mar. 17, 1995,
U.S.-Can., Art. 15.
Dewees then filed suit in the United States District
Court for the District of Columbia, asserting that
the penalty violated the United States Constitution.
Specifically, Dewees’ complaint alleged that (i) the
limited procedures for challenging the penalty prior
to payment denied him the due process guaranteed by
the Fifth Amendment, (ii) the higher penalties provided
for in the Disclosure Program as opposed to a different
tax compliance program deprived him of the equal
protection of the law under the Fifth Amendment, and

4a
Appendix A
(iii) the penalty constituted an excessive fine forbidden
by the Eighth Amendment. J.A. 9-14. The district court
dismissed the case for lack of jurisdiction and failure to
state a claim under Federal Rules of Civil Procedure 12(b)
(1) and 12(b)(6), respectively. Dewees v. United States, 272
F. Supp. 3d 96, 103 (D.D.C. 2017).
Dewees does not challenge the district court’s
dismissal of his Eighth Amendment claim. He appeals
only the dismissal of his due process and equal protection
claims. Both challenges fail.
As for the due process claim, the district court
correctly dismissed for failure to state a claim under
Federal Rule of Civil Procedure 12(b)(6). Dewees
argues that the Constitution required the government
to afford him additional opportunities for review of the
penalty before he had to pay it. But Dewees was able
to administratively challenge the penalty twice—first
through the Taxpayer Advocate’s Office, and then through
the IRS Appeals Office. Federal law also provided Dewees
with a broad post-payment right to challenge the penalty
in federal court. See 28 U.S.C. § 1346(a)(1) (District courts
have jurisdiction over “[a]ny civil action against the
United States for the recovery of any internal-revenue tax
alleged to have been erroneously or illegally assessed or
collected, or any penalty claimed to have been collected
without authority or any sum alleged to have been
excessive or in any manner wrongfully collected under
the internal-revenue laws[.]”). Dewees does not identify
any constitutional flaw in any of those proceedings; he
simply wants more proceedings—a third bite at the

5a
Appendix A
apple—before review becomes contingent on pre-payment
of the tax penalty. But the Due Process Clause does not
demand that taxpayers be given three chances before
paying up. See Bob Jones Univ. v. Simon, 416 U.S. 725,
747-748, 94 S. Ct. 2038, 40 L. Ed. 2d 496 (1974) (“[A]lthough
the congressional restriction to postenforcement review
may place an organization * * * in a precarious financial
position, the problems presented do not rise to the level
of constitutional infirmities, in light of the powerful
governmental interests in protecting the administration
of the tax system from premature judicial interference,
and of the opportunities for review that are available.”)
(internal citations omitted); Phillips v. Commissioner, 283
U.S. 589, 597-598, 51 S. Ct. 608, 75 L. Ed. 1289, 1931-1 C.B.
264 (1931) (holding that the “postponement of the judicial
enquiry is not a denial of due process” in tax cases “if the
opportunity given for the ultimate judicial determination
of the liability is adequate”).
With respect to Dewees’ equal protection claim, we
affirm the district court’s dismissal albeit on an alternative
ground.
Dewees argues that in 2014—five years after he
sought to come into compliance under the Disclosure
Program—the federal government unconstitutionally
offered lower tax penalties to taxpayers participating in a
new Streamlined Filing Compliance Procedures program
(“Streamlined Program”). In so arguing, Dewees admits
that his prior participation in the Disclosure Program
rendered him ineligible for the Streamlined Program.

6a
Appendix A
The district court dismissed Dewees’ equal protection
claim for lack of standing, under Federal Rule of Civil
Procedure 12(b)(1). That was a mistake. To establish
standing, a plaintiff must demonstrate “an ‘injury in fact’
that is ‘fairly traceable’ to the defendant’s actions and
that is ‘likely to be redressed by the relief’ []he seeks.”
Attias v. Carefirst, Inc., 865 F.3d 620, 625 (D.C. Cir. 2017)
(quoting Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547,
194 L. Ed. 2d 635 (2016)). Dewees’ equal protection claim
fits that bill. His obligation to pay a higher penalty than
other taxpayers, whom Dewees considers to be similarly
situated, amounts to a concrete and particularized legal
injury. See Carpenters Industrial Council v. Zinke,
854 F.3d 1, 5, 428 U.S. App. D.C. 243 (D.C. Cir. 2017)
(recognizing that “economic harm” is “an injury-in-fact
for standing purposes”). That injury is plainly caused
by the IRS and redressable by court decree. Article III
requires no more.
The district court reasoned that standing was
contingent on Dewees’ first applying for the more favorable
governmental program. Dewees, 272 F. Supp. 3d at 102 &
n.1. But there is no dispute that Dewees was categorically
ineligible for the Streamlined Program. Under these
circumstances, Article III standing does not hinge upon
Dewees’ failure to undertake a futile act. See Safari Club
Int’l v. Jewell, 842 F.3d 1280, 1285-1286, 426 U.S. App.
D.C. 427 (D.C. Cir. 2016) (“In the context of applications for
government benefits,” the general obligation to “submit to
a government policy to establish standing to challenge it
* * * may be excused where a plaintiff makes a substantial
showing that the application for the benefit would have
been futile.”) (formatting edited).

7a
Appendix A
While Dewees wins the standing battle, he still loses
the war. Dewees’ equal protection argument fails to state
a legally cognizable claim, and so the district court’s
dismissal of the claim was proper under Federal Rule
of Civil Procedure 12(b)(6). When it comes to matters
of purely economic and financial regulation, differences
in governmental classifications “cannot run afoul of the
Equal Protection clause if there is a rational relationship
between the disparity of treatment and some legitimate
governmental purpose.” Armour v. City of Indianapolis,
566 U.S. 673, 680, 132 S. Ct. 2073, 182 L. Ed. 2d 998 (2012)
(evaluating a “tax classification”) (formatting edited); see
also Nordlinger v. Hahn, 505 U.S. 1, 11, 112 S. Ct. 2326,
120 L. Ed. 2d 1 (1992). That means that we must uphold
the government’s imposition of different penalties under
the Disclosure Program and the Streamlined Program
“if ‘there is any reasonably conceivable state of facts that
could provide a rational basis for [it].’” Armour, 566 U.S.
at 681 (quoting FCC v. Beach Communications, 508 U.S.
307, 313, 113 S. Ct. 2096, 124 L. Ed. 2d 211 (1993)). The
difference in treatment here is rational. The purpose of the
Streamlined Program was “[t]o encourage * * * taxpayers
to come forward.” See Statement of IRS Commissioner
John Koskinen, Internal Revenue ServIce (June 18,
2014), https://www.irs.gov/newsroom/statement-of-irscommissioner-john-koskinen. For Dewees and other
taxpayers who had already voluntarily come forward
years earlier, no such incentive was needed. It was
therefore rational for the government, which had already
assessed Dewees’ liability though the Disclosure Program,
to decline to devote further resources to reassess his
liability under the Streamlined Program’s revised penalty
structure.

8a
Appendix A
For all of those reasons, the district court properly
dismissed Dewees’ complaint.
Pursuant to D.C. Circuit Rule 36, this disposition
will not be published. The Clerk is directed to withhold
issuance of the mandate herein until seven days after
resolution of any timely petition for rehearing or rehearing
en banc. See Fed. R. A pp. P. 41(b); D.C. CIr. R. 41(a)(1).
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
By: /s/				
Ken Meadows
Deputy Clerk

9a
Appendix
B MEMORANDUM
APPENDIX B — ORDER
AND
OPINION OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF COLUMBIA,
FILED AUGUST 8, 2017
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Case No. 16-cv-01579 (CRC)
DONALD DEWEES,
Plaintiff,
v.
UNITED STATES OF AMERICA,
Defendant.
ORDER
For the reasons stated in the accompany ing
Memorandum Opinion, it is hereby
ORDERED that [8] Defendant’s Motion to Dismiss
for Lack of Jurisdiction and Failure to State a Claim be
GRANTED. It is further
ORDERED that this case is DISMISSED.
SO ORDERED.

10a
Appendix B
This is a final, appealable order.
/s/ Christopher R. Cooper
CHRISTOPHER R. COOPER
United States District Judge
Date: August 8, 2017

11a
Appendix B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Case No. 16-cv-01579 (CRC)
DONALD DEWEES,
Plaintiff,
v.
UNITED STATES OF AMERICA,
Defendant.
August 8, 2017, Decided;
August 8, 2017, Filed
MEMORANDUM OPINION
The arm of the U.S. tax man is long, but in this case
it needed extend only over our northern border to find
Plaintiff Donald Dewees. Dewees is a U.S. citizen living in
Canada, where he operates a consulting business. Because
the business is incorporated abroad, Dewees was required
to furnish certain annual information about the company
to the IRS. 26 U.S.C. § 6038(b). Unfortunately for Dewees,
he neglected to do so for over a decade.
Enter the tax man. After Dewees voluntarily disclosed
his failure to file the required informational returns, the
IRS assessed a statutory penalty of $120,000, $10,000

12a
Appendix B
for each year of non-compliance. Dewees challenged
the penalty before the IRS without success and refused
to pay it. But what Dewees likely did not anticipate
is that, pursuant to the U.S.-Canada tax treaty, the
Candian tax authority would hold Dewees’ domestic
tax refund in abeyance until the IRS penalty was paid
in full. After paying the penalty, Dewees filed suit in
this Court challenging the relevant treaty provisions as
unconstitutional under the Eighth Amendment and both
the Due Process and Equal Protection Clauses of the
Fifth Amendment. The Government now moves to dismiss.
Finding that Dewees has failed to state a claim for relief on
his Eighth Amendment and due process claims, and lacks
standing to bring his equal protection claim, the Court
will grant the Government’s motion and dismiss the case.
I.

Background

U.S. citizens who hold controlling interests in foreign
corporations must annually file IRS Form 5471, which
discloses certain ownership and financial information
about the corporation. In addition, U.S. citizens living
abroad must disclose holdings in foreign bank accounts
over certain thresholds by filing a Report of Foreign Bank
and Financial Accounts (“FBAR”). See Def.’s Mot. to
Dismiss (“MTD”) 7; Compl. ¶ 12. In 2009, Dewees learned
that he had failed to comply with these requirements, and,
on the advice of a tax specialist, applied to participate
in the IRS’s Offshore Voluntary Disclosure Program
(“OVDP”). See Compl. ¶¶ 13-16. OVDP is intended to
encourage taxpayers who have not disclosed their offshore
assets, and who are not already under investigation

13a
Appendix B
by the agency, to voluntarily comply with applicable
disclosure requirements. See IRS, 2009 Offshore
Voluntary Disclosure Program, https://www.irs.gov/
uac/2009-offshore-voluntary-disclosure-program; Maze
v. IRS (“Maze I”), 206 F. Supp. 3d 1, 5-6 (D.D.C. 2016),
aff’d, 862 F.3d 1087, 2017 U.S. App. LEXIS 12598, 2017
WL 2989488 (D.C. Cir. July 14, 2017). In return for their
disclosures, the program offers taxpayers compromise
terms on penalties for outstanding taxes, assurance that
the IRS will not refer the matter to the Department of
Justice for criminal prosecution, and finality regarding
previous non-disclosures. See Maze I, 206 F. Supp. 3d
at 6-7. The IRS assessed a penalty of $185,862 against
Dewees for not filing FBARs from 2003 to 2008, but did
not at that time calculate a penalty for Dewees’ failure to
file Form 5471. See Compl. ¶¶ 22, 24-25; IRS, Taxpayers
with Foreign Assets May Have FBAR and FATCA
Filing Requirements in June, https://www.irs.gov/uac/
newsroom/taxpayers-with-foreign-assets-may-have-fbarand-fatca-filing-requirements-in-june. Dewees refused to
pay the assessed penalty and withdrew from the OVDP.
See id. ¶¶ 26-27.
In September 2011, the IRS notified Dewees that it
had assessed a different penalty of $120,000 against him
for failing to file Form 5471 from 1997 to 2008. See id. ¶¶ 1,
29. Section 6038(c) of the Tax Code authorizes the IRS
to impose a $10,000 penalty for each missed filing. See 26
U.S.C. § 6038(c). The total penalty was based entirely on
Dewees’ failure to file; he was not liable for any unpaid
taxes. See Compl. ¶ 47. Dewees requested an abatement of
this penalty for reasonable cause, which was denied, as was
his subsequent appeal of that decision. See id. ¶¶ 35-36.

14a
Appendix B
Well after Dewees’ appeal had been rejected, the IRS
introduced another program to encourage taxpayers to
voluntarily disclose offshore assets—the Streamlined
Filing Compliance Procedures (“SFCP”). The SFCP
differs from the OVDP in several respects: The SFCP
involves less paperwork and imposes lower penalties than
the OVDP, but only covers three years of non-compliance
as opposed to the OVDP’s eight-year coverage period.
See Def.’s MTD 3-4; Compl. ¶ 50; Maze v. IRS, 862 F.3d
1087, 2017 U.S. App. LEXIS 12598, 2017 WL 2989488, at
*1 (D.C. Cir. July 14, 2017) (“Maze II”). And, unlike the
OVDP, the SFCP does not offer immunity from criminal
prosecution. See 2017 U.S. App. LEXIS 12598, [WL] at *4
n.2. Transferring between the two programs is generally
disfavored, but taxpayers who are otherwise eligible for
the SFCP and made their OVDP submissions before July
1, 2014, may remain in the OVDP while requesting the
more favorable terms available under the SFCP. See Maze
I, 206 F. Supp. 3d at 7-8.
In May 2015, the Canadian Revenue Agency notified
Dewees that it was holding his Canadian tax refund
in abeyance due to his outstanding $120,000 debt to
the IRS. See Compl. ¶ 37. This international collection
assistance is permitted by Article XXVI(A) of the United
States-Canada Income Tax Convention. See Def.’s MTD
9-10; Compl. ¶ 37. Dewees promptly sent the Canadian
Revenue Agency a check for $134,116.34, representing
the $120,000 penalty plus interest. See Compl. ¶ 38. In
September 2015, he filed a claim seeking a refund of that
amount, which was rejected in May 2016. See Compl. ¶ 5.
He then brought this action, requesting that the Court find

15a
Appendix B
the collection assistance provisions of the United StatesCanada Tax Convention unconstitutional for violating (1)
the Excessive Fines Clause of the Eighth Amendment,
(2) the Due Process Clause of the Fifth Amendment, and
(3) the Equal Protection Clause of the Fifth Amendment.
See id. ¶¶ 42-47, 66-67, 52-53.
II. Standards of Review
The Government moves to dismiss for failure to state a
claim upon which relief can be granted with respect to all
three of Dewees’ claims. See Def.’s MTD 1. Alternatively,
it asks that Dewees’ equal protection claim be dismissed
for lack of subject matter jurisdiction. See id. at 18. Under
Federal Rule of Civil Procedure 12(b)(1), the Court must
dismiss any action over which it cannot properly exercise
jurisdiction. “[D]efect[s] of standing” constitute “defect[s]
in subject matter jurisdiction.” Haase v. Sessions, 835
F.2d 902, 906, 266 U.S. App. D.C. 325 (D.C. Cir. 1987). The
“plaintiff bears the burden of . . . establishing the elements
of standing,” and each element “‘must be supported in
the same way as any other matter on which the plaintiff
bears the burden of proof, i.e., with the manner and
degree of evidence required at the successive stages of
the litigation.’” Arpaio v. Obama, 797 F.3d 11, 19, 418 U.S.
App. D.C. 163 (D.C. Cir. 2015) (quoting Lujan v. Defenders
of Wildlife, 504 U.S. 555, 561, 112 S. Ct. 2130, 119 L. Ed.
2d 351 (1992)).
To survive a 12(b)(6) motion, a “complaint must contain
sufficient factual matter, accepted as true, to ‘state a claim
to relief that is plausible on its face.’” Ashcroft v. Iqbal,

16a
Appendix B
556 U.S. 662, 678, 129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009)
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570, 127
S. Ct. 1955, 167 L. Ed. 2d 929 (2007)). A court “accept[s]
as true all of the allegations contained in [the] complaint,”
disregarding “[t]hreadbare recitals of the elements of
a cause of action” and “mere conclusory statements.”
Iqbal, 556 U.S. at 678. The court then examines the
remaining “factual content [to determine if it may] draw
the reasonable inference that the defendant is liable for
the misconduct alleged.” Id. A court must also consider
“documents incorporated into the complaint by reference.”
Tellabs, Inc. v. Makor Issues & Rights, Ltd., 551 U.S. 308,
322, 127 S. Ct. 2499, 168 L. Ed. 2d 179 (2007).
III. Analysis
A.

Excessive Fines Claim

“Excessive bail shall not be required, nor excessive
fines imposed, nor cruel and unusual punishments
inflicted.” U.S. Const. amend. VIII. In analyzing an
excessive fines claim, the Court must first decide
whether a penalty is a fine before determining if it
is unconstitutionally excessive. See United States v.
Bajakajian, 524 U.S. 321, 334, 118 S. Ct. 2028, 141 L.
Ed. 2d 314 (1998). A payment to the government is only
considered a “fine” under the Eighth Amendment if it is
“punishment for some offense.” Bajakajian, 524 U.S. at
328 (quoting Austin v. United States, 509 U.S. 602, 609-10,
113 S. Ct. 2801, 125 L. Ed. 2d 488 (1993)). In other words,
the purpose of the penalty must be primarily retributive
or deterrent rather than remedial. Id. In the context of

17a
Appendix B
forfeiture, for example, a penalty that is solely “designed
to punish the offender” is considered punishment and is
thus limited by the Excessive Fines Clause. Id. at 333-34.
Tax penalties, by contrast, having been held to
fulfill a remedial purpose are therefore not subject to
the Excessive Fines Clause. The Supreme Court first
articulated this principle almost 80 years ago in Helvering
v. Mitchell, 303 U.S. 391, 58 S. Ct. 630, 82 L. Ed. 917, 19381 C.B. 317 (1938), reasoning that tax penalties are remedial
because they exist as “a safeguard for the protection of
the revenue and to reimburse the Government for the
heavy expense of investigation and the loss resulting
from the taxpayer’s fraud.” Id. at 401 (citing a string
of supporting precedent). Since then, the lower courts
have erected “an insurmountable wall of tax cases” to
support this proposition. See, e.g., McNichols v. Comm’r
of Internal Revenue, 13 F.3d 432, 434 (1st Cir. 1993)
(holding that the Excessive Fines Clause does not apply
to civil tax penalties and characterizing the proposed
extension of rule from forfeiture cases to tax penalties
as an unsupported “giant leap”); Little v. Comm’r of
Internal Revenue, 106 F.3d 1445, 1455 (9th Cir. 1997)
(holding that the Excessive Fines Clause was not violated
because plaintiff “failed to establish that the additions to
tax in question [were] penal sanctions unrelated to the
government’s fundamental interest in raising revenue”);
Thomas v. Comm’r of Internal Revenue, 62 F.3d 97, 10203 (4th Cir. 1995) (same). A Bankruptcy Court recently
applied this precedent in holding the same Form 5471
non-compliance penalties challenged here are not fines.
See In re Wyly, 552 B.R. 338, 608 (Bankr. N.D. Tex. 2016).

18a
Appendix B
The Court concludes likewise. Because “a small, fixedpenalty provision,” such as the $10,000 penalty here, “can
be said to do no more than make the Government whole,”
it is outside the Eighth Amendment’s reach. Austin, 509
U.S. at 622 n.14 (internal quotations omitted).
Dewe e s nonet hele s s at t empt s t o sc a le t h i s
“insurmountable wall” of precedent by arguing that a
smaller penalty would have achieved the same objective of
making the Government whole. See Pl.’s Opp’n 3. But that
is beside the point. Congress authorized a $10,000 penalty
for every instance of non-compliance because it recognized
the expenses and loss that could result if U.S. taxpayers no
longer felt obligated to disclose their foreign assets. The
IRS strictly applied that statutorily authorized amount
across Dewees’ twelve years of non-compliance, resulting
in a total penalty of $120,000—an amount designed to
mitigate the harm suffered by the Government. Because
Congress authorized this penalty for a legitimate remedial
purpose, Dewees’ Eighth Amendment claim fails.
B. Due Process Claim
Dewees likewise fails to establish a due process
violation because he has been afforded an adequate
“opportunity to be heard at a meaningful time and in
a meaningful manner.” Mathews v. Eldridge, 424 U.S.
319, 333, 96 S. Ct. 893, 47 L. Ed. 2d 18 (1976) (quoting
Armstrong v. Manzo, 380 U.S. 545, 552, 85 S. Ct. 1187, 14
L. Ed. 2d 62 (1965)). Courts judge procedural due process
challenges to property deprivations by weighing (1) “the
private interest that will be affected by the official action;”

19a
Appendix B
(2) “the risk of an erroneous deprivation of such interest
through the procedures used, and the probable value, if
any, of additional or substitute procedural safeguards;”
and (3) “the Government’s interest, including the function
involved and the fiscal and administrative burdens that
the additional or substitute procedural requirement would
entail.” Id. at 335.
Mere postponement of an opportunity to challenge
the imposition of a tax penalty “is not a denial of due
process, if the opportunity given for the ultimate judicial
determination of the liability is adequate.” Phillips v.
Comm’r of Internal Revenue, 283 U.S. 589, 596-97, 51 S.
Ct. 608, 75 L. Ed. 1289, 1931-1 C.B. 264 (1931). Such delays
are “an inevitable consequence” of disputes between
taxpayers and the IRS, and are not unconstitutional.
Bob Jones Univ. v. Simon, 416 U.S. 725, 747, 94 S. Ct.
2038, 40 L. Ed. 2d 496 (1974). Federal district courts have
jurisdiction over lawsuits against the Government for the
refund of tax penalties. See 28 U.S.C. § 1346(a)(1). Full
payment of the amount owed followed by a lawsuit in a
district court seeking a refund is a proper procedure for
challenging penalties assessed under § 6038. See Wheaton
v. United States, 888 F. Supp. 622, 627 (D.N.J. 1995)
(citing 28 U.S.C. § 1346(a)). Section 1346 gives district
courts original jurisdiction over “any civil action against
the United States for the recovery of . . . any penalty
claimed to have been collected without authority or any
sum alleged to have been excessive on in any manner
wrongfully collected under the internal-revenue laws[.]”
Id. That is so even if this results in the taxpayer being “in
the position of paying a substantial tax penalty without

20a
Appendix B
prepayment review.” Id.; see also Nat’l Fed’n of Indep.
Bus. v. Sebelius, 567 U.S. 519, 543, 132 S. Ct. 2566, 183 L.
Ed. 2d 450 (2012) (“[T]axes can ordinarily be challenged
only after they are paid, by suing for a refund.”).
Dewees claims that he was denied adequate due
process because he had no opportunity to appeal his
penalty “through administrative means or the U.S.
Tax Court” before it was collected. Compl. ¶ 67. But the
absence of Dewees’ requested avenue of relief does not
mean his due process rights have been violated. The
ability to challenge tax penalties in district courts under
§ 1346(a)(1) fulfills the Fifth Amendment’s requirements.
Accordingly, Dewees has failed to state a claim for relief
under the Due Process Clause of the Fifth Amendment.
C.

Equal Protection Claim

Finally, the Government moves to dismiss Dewees’
equal protection claim for lack of subject matter
jurisdiction and failure to state a claim upon which relief
can be granted. See Def.’s MTD 18. The Court must start
with the jurisdictional issue. In order to have standing to
litigate a claim in federal court, a plaintiff must establish
an injury in fact, which is traceable to the defendant, and
which is likely to be redressed by prevailing in court.
Lujan, 504 U.S. at 560-61. A sufficient injury in fact is
concrete and particularized, and actual or imminent
as opposed to merely hypothetical. Id. at 560. It is the
plaintiff’s burden to demonstrate that his claim satisfies
all of these elements. Id. at 561. In considering a motion
to dismiss for lack of standing, the Court must assume

21a
Appendix B
the truth of the plaintiff’s factual allegations but not his
legal conclusions, which must be supported by more than
“mere conclusory statements.” Williams v. Lew, 819 F.3d
466, 472, 422 U.S. App. D.C. 119 (D.C. Cir. 2016) (quoting
Iqbal, 556 U.S. at 663).
Dewees bases his equal protection claim on the
contention that he was not allowed to participate in the
SFCP while other similarly situated taxpayers were, and
thus he was denied the opportunity to have a lower penalty
imposed. See Compl. ¶¶ 52-53. This argument suffers from
a fatal flaw because, as the Government points out, Dewees
has not pled that he sought entrance into the SFCP or
that his application was denied. See Def.’s MTD 18. And
because Dewees has not shown (or attempted to show) that
the IRS ever denied him the opportunity to participate in
the SFCP, he cannot establish that he suffered an actual
injury. By failing to show that he was injured, Dewees
lacks standing and this Court lacks jurisdiction to hear
his claim.1

1. The Government alternatively moves to dismiss under Rule
12(b)(6) for failure to state a claim. Because the Court lacks subject
matter jurisdiction, it will not consider this contention. The Court
notes, however, that a fellow court in this district denied a similar
equal protection claim, holding that a taxpayer who participated in
OVDP prior to July 1, 2014 “may be able to receive the favorable
penalty terms of the Streamlined Procedures, but must remain in
the OVDP in order to do so.” Maze I, 206 F. Supp. 3d at 7-8. Applying
that principle here, Dewees’ decision to leave the OVDP—and not
the IRS’s actions—rendered him ineligible for the SFCP.

22a
Appendix B
IV. Conclusion
For the reasons discussed above, the Court finds that
Dewees has failed to state a viable claim with respect to
his excessive fines and due process claims, and that it lacks
subject matter jurisdiction over Dewees’ equal protection
claim. Accordingly, it will grant the Government’s
motion to dismiss. A separate Order accompanies this
Memorandum Opinion.
/s/ Christopher R. Cooper
CHRISTOPHER R. COOPER
United States District Judge
Date: August 8, 2017

